Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Adequacy of Home Health Services:
     Hospital Re-Admissions
   and Emergency Room Visits




                   JUNE GIBBS BROWN
                    Inspector General

                     SEPTEMBER 2000
                      OEI-02-99-00531
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Ellen Vinkey, Project Leader                   Brian Ritchie, Director, Technical Support Staff
Judy Lin                                       Tricia Davis, Program Specialist
                                               Barbara Tedesco, Mathematical Statistician




       To obtain copies of this report, please call the New York Regional Office at 212 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                         EXECUTIVE SUMMARY

PURPOSE
          To determine if hospital re-admission and emergency room visit rates for Medicare
          patients discharged from the hospital to home health care have increased since the
          implementation of the home health interim payment system.

BACKGROUND
          The Health Care Financing Administration has asked the Office of Inspector General to
          assess whether hospital re-admission rates and emergency room visits for Medicare home
          health patients have increased since the implementation of the interim payment system.
          The Health Care Financing Administration made this request in response to a recent Office
          of Inspector General study entitled “Medicare Beneficiary Access to Home Health
          Agencies” (OEI-02-99-00530). In that study, most hospital discharge planners reported
          that they were generally able to place Medicare beneficiaries with home health agencies;
          however, some discharge planners volunteered their concern that some of their patients
          may not be getting the care they need once they are placed. Two of the changes that
          hospital discharge planners cite as indications that patients may not be getting the home
          health care they need are higher hospital re-admission rates and increasing use of hospital
          emergency rooms. This inspection follows up on those concerns. It is part of a series of
          inspections that the Office of Inspector General has conducted on home health care.
          For this study, we analyze Health Care Financing Administration claims data for all
          Medicare beneficiaries discharged from a hospital to home health care in early 1997 and
          for an analogous period in 1999.

FINDINGS
Hospital Re-Admissions and Emergency Room Visits for Home Health Patients
Have Decreased
          Comparing the first 2 months of 1997 and 1999, we found that the percentage of
          Medicare patients who were re-admitted to the hospital or visited an emergency room has
          not increased since the implementation of the interim payment system.

                       Hospital Re-admission and Emergency Room Visit Rates
                                     For Home Health Patients
                              Before and After Interim Payment System
                                                                        1997           1999

               Hospital Re-admission Rate                               41.2%         37.8%

               Emergency Room Visit Rate                                21.9%         19.0%
                                                               Source: National Claims History File

Hospital Re-admissions and ER Visits               i                                 OEI-02-99-00531
          In fact, the percentage has decreased. We looked for other changes for this population.
          We found that the average length of home health episodes for Medicare patients
          discharged to home health care has decreased by 41 percent since the implementation of
          the interim payment system. We also found that the number of Medicare patients
          discharged to home health care declined by 23 percent. However, many other
          characteristics of this population have not changed. We found home health patients do
          not differ pre- and post- interim payment system in terms of age, sex, race, and hospital
          length of stay.

          We also compared these patients to the general Medicare population. We found that re-
          admission rate changes pre- and post- interim payment system for home health patients are
          consistent with those for the general population.

Re-Admission Rates Do Not Vary By Diagnoses

          The re-admission rates for both high volume and frequently re-admitted diagnoses have
          not increased since the implementation of the interim payment system. The re-admission
          ranking for the five most common diagnoses associated with patients who get re-admitted
          to the hospital has remained relatively constant pre- and post- interim payment system.
          Not surprisingly, in both 1997 and 1999, these high volume re-admission diagnoses are
          very similar to those of patients most likely to get home health care upon discharge from
          the hospital. They include heart failure, stroke, and pneumonia. Patients with cancer-
          related diagnoses are the most likely to be re-admitted to the hospital both pre- and post-
          interim payment system. We also compared hospital re-admission rates for patients in
          diagnoses that a number of recent studies identified as patient types which may be at-risk
          of receiving inadequate care. We found no significant increases in the percentage of
          patients re-admitted in at-risk diagnoses.

Emergency Room Visit Rates Do Not Vary By Diagnoses

          For the majority of high volume and frequent emergency room visit diagnoses, the
          emergency room visit rates have not increased since the implementation of the interim
          payment system. The ranking for the five most common diagnoses associated with
          patients who visit the emergency room has remained relatively constant pre- and post-
          interim payment system. Home health patients most likely to visit the emergency room
          covered a broader range of diagnoses than those likely to be re-admitted to the hospital.
          However, patients with respiratory illnesses and those with kidney and urinary tract
          diagnoses show up at the top of this list in both 1997 and 1999. We also found no
          significant increase in the rate at which patients in at-risk diagnoses visited the emergency
          room pre- and post- interim payment system. Seven of the eight at-risk diagnoses we
          looked at show no increase in emergency room visits rates between 1997 and 1999.




Hospital Re-admissions and ER Visits                ii                               OEI-02-99-00531
Agency Comments

          The Health Care Financing Administration provided comments on this and two related
          draft reports. They note that our finding that re-admissions and ER visits have declined is
          an indicator of stability in home care under the interim payment system. They also note
          that on October 1, 2000, the new prospective payment system for home health care will
          go into effect. They, like we, will monitor care under the new system. The Health Care
          Financing Administration’s comments are in Appendix B.




Hospital Re-admissions and ER Visits               iii                             OEI-02-99-00531
                         TABLE                       OF             CONTENTS



                                                                                                                         PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Decrease In Re-Admissions and Emergency Room Visits . . . . . . . . . . . . . . . . . . . . . . . . 7


          Re-Admission Rates Do Not Vary By Diagnoses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Emergency Room Visits Do Not Vary By Diagnoses . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Rates Consistent With General Population . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES

A: Selected List Of Recent OIG Home Health Inspections . . . . . . . . . . . . . . . . . . . . . . . . 16


B: HCFA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





Hospital Re-admissions and ER Visits                            1                                          OEI-02-99-00531
                                       INTRODUCTION


PURPOSE

          To determine if hospital re-admission and emergency room visit rates for Medicare
          patients discharged from the hospital to home health care have increased since the
          implementation of the home health interim payment system (IPS).


BACKGROUND

          The Health Care Financing Administration (HCFA) has asked the Office of Inspector
          General (OIG) to assess whether hospital re-admission rates and emergency room visits
          for Medicare home health patients have increased since the implementation of the interim
          payment system (IPS). The HCFA made this request in response to a recent OIG study
          entitled “Medicare Beneficiary Access to Home Health Agencies” (OEI-02-99-00530).
          In that study, most hospital discharge planners reported that they were generally able to
          place Medicare beneficiaries with home health agencies; however, some discharge
          planners volunteered their concern that some of their patients may not be getting the care
          they need once they are placed. Two of the changes that hospital discharge planners cite
          as indications that patients may not be getting the home health care they need are higher
          hospital re-admission rates and increasing use of hospital emergency rooms. This
          inspection follows up on those concerns. It is part of a series of inspections that the OIG
          has conducted about home health care. (See Appendix A.)

Medicare Home Health Care

          Home health care services consist of skilled nursing, therapy (physical, occupational, and
          speech) and certain related services, including aide services, all furnished in a patient’s
          home. Services are typically provided by registered nurses, therapists, social workers, or
          home health aides employed by or under contract with a home health agency (HHA).
          These agencies can be free-standing or provider-based and classified as not-for-profit,
          proprietary, or governmental.

          Medicare will pay for home health care only if it is reasonable and necessary for the
          treatment of the patient’s illness or injury. In order for a beneficiary to qualify for
          Medicare coverage of home health services, he/she must be confined to home, require at
          least one skilled service, and be under the care of a physician who has established a plan of
          care. Skilled services are defined as intermittent skilled nursing services, physical therapy,
          speech therapy, and a continued need for occupational therapy.

          During much of the 1990s, Medicare spending for home health services increased

Hospital Re-admissions and ER Visits                2                                OEI-02-99-00531
          substantially. From 1990 to 1997, expenditures rose from $3.7 billion to $17.8 billion.
          This resulted from both an increase in the number of beneficiaries who received home
          health services and an increase in the number of visits they received. In 1999, Medicare
          spending for home health services was about $9.5 billion.

          Beginning in 1995, several initiatives were implemented to address concerns about fraud
          and abuse, and to control the costs of Medicare home health. These included the creation
          of an anti-fraud campaign entitled Operation Restore Trust, changes to Medicare
          participation rules designed to screen out problem providers, and, most recently, payment
          limits created by the Balanced Budget Act of 1997.

The Balanced Budget Act of 1997

          The Balanced Budget Act of 1997 changes the way Medicare pays for home health care.
          The law requires a payment change from a cost-based method to a prospective payment
          system (PPS) of fixed, predetermined rates for home health services. The HCFA has
          proposed a national 60-day episode payment which will be case-mix adjusted based on the
          patient’s medical assessment and the projected number of therapy hours needed in the 60-
          day episode.

          Until this PPS is developed, however, home health agencies are reimbursed under an
          interim payment system which imposes payment limits on their services. The IPS was
          implemented on October 1, 1997 and will continue to be in place until PPS begins on
          October 1, 2000. The IPS is intended to control the aggregate costs of services provided
          to beneficiaries. In addition to reducing the per-visit limit, it subjects Medicare HHAs to a
          new payment limit that is based on an aggregate per-beneficiary amount; this cap is
          applied to an agency’s total Medicare payments and does not limit payments for specific
          beneficiaries. The Omnibus Consolidated and Emergency Supplemental Appropriations
          Act of 1999 moderated the restrictiveness of IPS. This legislation made several changes
          to the payment limits, including increasing the per-visit limits for all agencies and
          increasing the aggregate beneficiary limit for certain agencies. In that same year, Congress
          enacted the Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999,
          which delayed a 15 percent payment reduction to be imposed with the implementation of
          PPS and increased payments under IPS to certain agencies.

          Under IPS, agencies can use several methods to keep costs below their payment limits,
          including balancing their mix of low and high cost patients, reducing their costs overall,
          and increasing their proportion of low-cost patients.

          As part of the conditions of participation, home health agencies must use a new home
          health agency data collection system called the Outcome and Assessment Information Set
          (OASIS). All HHAs have been required to collect OASIS data on all patients receiving
          skilled care, regardless of payment source, since July 1999. The OASIS data elements
          focus primarily on the patient’s medical status and include socio-demographic,
          environmental, support systems, health status, and functional status information on each
          patient. Information on hospital re-admissions and emergency room visits is also

Hospital Re-admissions and ER Visits                3                                OEI-02-99-00531
          captured. The OASIS can be used by home health agencies to determine patients
          treatment needs, develop the plan of care, and monitor quality of care.

Related Studies

          As a follow-up to our recent OIG inspection, “Medicare Beneficiary Access to Home
          Health Agencies,” we contacted a number of the discharge planners who had expressed
          concerns about the adequacy of home health services. We asked them to elaborate on
          their concerns regarding hospital re-admissions and emergency room visits. Most of the
          discharge planners we spoke to indicated that between 5 and 35 percent of their Medicare
          patients are not getting the amount of home care they need or the duration of services
          needed. A few discharge planners indicated that they were particularly concerned about
          diabetic patients and those who had suffered a stroke. These discharge planners told us
          that when they see HHA patients re-admitted to the hospital it is usually during their home
          health services or within one month of their discharge from the HHA.

          In addition to our recent inspection report, “Medicare Beneficiary Access to Home
          Health Agencies,” several other studies have been released recently that discuss adequacy
          and access to home health care. A General Accounting Office report found that overall
          beneficiary access has not been affected by recent agency closures but did suggest that, as
          agencies change their operations in response to IPS, beneficiaries whose treatment costs
          are higher than average may have increasing difficulty obtaining home health care.

          Also, the Medicare Payment Advisory Commission (MedPAC) reported the following: a
          decline in the number of home health agencies; concerns about impaired access; and,
          abrupt home health discharges for patients with expensive care needs. MedPAC notes,
          however, that IPS is only one factor of many that may be affecting access to care.

          A George Washington University study reported that agencies are altering admissions
          standards, reducing clinical and administrative staff, and chronically ill patients are
          experiencing greater fragmentation and disruption of care. Over 40 percent of discharge
          planners surveyed reported an increase in hospital readmission rates for Medicare patients
          within 30 days of discharge to an HHA. They attributed this trend to “insufficient
          intensity or duration of home health care services either resulting from direct efforts by
          home health agencies to control individual patient costs or the indirect results of general
          staffing cuts to reduce costs.”

          A study by the Institute for Health Care Research and Policy at Georgetown University
          found that similar patients with greater use of home care services are more likely to
          experience health improvements than those with low home care utilization.

          Finally, HCFA has completed two PPS demonstration projects. The latest, which looks at
          per-episode payments, found no evidence that quality of care, as measured by patient
          outcomes, had been adversely affected by the per-episode PPS demonstration. It also
          found that the per-episode PPS demonstration substantially reduced the number of home
          visits without increasing the use of other Medicare services. Based on an analysis of

Hospital Re-admissions and ER Visits               4                                OEI-02-99-00531
          claims data, HCFA found lower usage of emergency rooms by per-episode PPS patients
          and no significant differences in institutional admissions for a diagnosis related to the
          home health diagnosis. The report therefore concluded that a per-episode based home
          health prospective payment system could reduce Medicare costs without harming quality
          of care.


METHODOLOGY

          Using HCFA’s National Claims History data, we identified all Medicare beneficiaries who:
          1) were discharged to home health care from a hospital between January 1, 1997, and
          February 28, 1997; and, 2) had a home health episode that started within 30 days of their
          hospital discharge. We also identified patients who met this criteria for an analogous
          period in 1999, allowing us to evaluate two comparable time periods pre- and post-IPS.
          For both years, we summarized beneficiary claims data from the National Claims History
          file to establish home health service begin and end dates for each beneficiary. When a gap
          of greater than 30 days existed between a home health claim “service thru date” and the
          “begin date” on the following claim for a given beneficiary, we considered this to be the
          end of the beneficiary’s home health episode.

Hospital Re-admit And Emergency Room Analysis

          For beneficiaries in each of these two groups we analyzed beneficiary claims history data
          for the period that they received home health care, as well as the 30 days following their
          HHA discharge. For beneficiaries whose home health episode continued beyond August
          31st, we analyzed claim history data through August 31st1. In cases where a beneficiary
          had multiple hospital discharges, re-admissions or emergency room visits, during our
          sampling time frame, only the first hospital discharge and “post-hospital event” were
          included in our analysis. We compared hospital re-admission and emergency room visit
          rates pre- and post-IPS. In this comparison, we calculated the overall re-admission and
          emergency visit rates for sample Medicare beneficiaries and looked for any differences. In
          addition, we calculated these rates for a number of sub-groups including, for example,
          different patient diagnosis and beneficiaries by State.

Patient Profile Analysis

          In order to gain a better understanding of any pre- and post-IPS rate differences, we
          looked at a number of different variables to develop a profile of the two groups. For
          example, we looked at whether the pre- and post-IPS groups differed significantly in terms
          of their diagnoses or hospital length of stay prior to their discharge. Using information
          from HCFA’s Enrollment database, we also compared beneficiary variables


          1
            In 1997 17% of beneficiaries in our sample had home health episodes that continued past our Aug. 31st
           cut off. In 1999 6% had home health episodes that continued past Aug. 31st.



Hospital Re-admissions and ER Visits                     5                                    OEI-02-99-00531
          including the following: age; race; sex; and, State of residence.

HHA Beneficiary And General Medicare Population Rate Analysis

          We also compared HHA patient pre- and post-IPS re-admission and emergency visit rates
          to those associated with the general population of Medicare beneficiaries discharged from
          the hospital during the same time frame. For this comparison, we tracked the general
          population beneficiaries, as well as the HHA beneficiaries for 60 days after their hospital
          discharge.

Limitations

          A limitation to our methodology is that our analysis reports only on changes in hospital re-
          admission and emergency room visit rates. This inspection is not intended to attribute any
          change to a particular factor, since many reasons, including IPS, may contribute to
          changes in readmission and emergency room visit rates. In addition, we do not make pre-
          and post- IPS comparisons by geographical region or by urban/ rural designation.
          Therefore, our analysis does not address the possibility of increased re-admission or
          emergency room visit rates within smaller geographical areas or in primarily urban or rural
          areas.


          This inspection was conducted in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Hospital Re-admissions and ER Visits                6                               OEI-02-99-00531
                                            FINDINGS

Hospital re-admissions and emergency room visits for home
health patients have decreased
          Despite significantly shorter home health episodes2, the percentage of Medicare patients
          who are re-admitted to the hospital or visit the emergency room has not increased since
          the implementation of the interim payment system (IPS). In fact, the percentage has
          decreased. Forty-one percent of all Medicare patients who were discharged from the
          hospital to home health in January and February 1997 (pre-IPS) were re-admitted to the
          hospital within 30 days of the end of their home health services. The re-admission rate for
          those discharged during an analogous period in 1999 (post-IPS) was 38 percent.
          Emergency room visit rates did not increase between 1997 and 1999 either. In 1997, 22
          percent of patients discharged from the hospital to home health had emergency room
          visits. In 1999, 19 percent had emergency room visits. (See Table 1 below.)
          Our analysis of these data was prompted by concerns expressed on the part of some
          hospital discharge planners that shorter home health episodes are resulting in increased re-
          admissions and emergency room visits, usually within one month of the end of patients’
          home health care. As indicated above, although we follow patients for the length of their
          home health episode plus 30 days3, we do not find evidence to support this theory. An
          analysis by State shows that hospital re-admission rates for home health patients did not
          increase in any State between 1997 and 1999. Finally, we found virtually no increase in
          any State in the rate at which home health patients visited emergency rooms pre- and post-
          IPS.

                                           Table 1

                    Hospital Re-admission and Emergency Room Visit Rates

                                  For Home Health Patients

                                                                                           Difference
                                                                    1997         1999      1997-1999


                   Hospital Re-admission Rate                       41.2%       37.8%          -3.4

                   Emergency Room Visit Rate                        21.9%      19.0%          -2.9
                                                                     Source: National Claims History File




          2
              A home health episode is the length of time a patient receives home care.

          3
             We analyzed beneficiary claims history data for the period that beneficiaries received home health care,
          as well as the 30 days following their HHA discharge. For beneficiaries whose home health episode
          continued beyond August 31st, we analyzed claim history data through August 31st.


Hospital Re-admissions and ER Visits                       7                                    OEI-02-99-00531
          We also calculated re-admission and emergency room visit rates for the first 60 days of
          patients’ home health episodes. We did this in order to control for the difference in length
          of home health episodes pre- and post-IPS. As would be expected, the re-admission and
          emergency room visit rates for this shorter time frame are lower, however, the data still do
          not show an increase in either of these rates. In both 1997 and 1999, 30 percent of home
          health patients were re-admitted to the hospital within the first 60 days of their home
          health services. In 1997, 13 percent of home health patients had emergency room visits
          within the first 60 days of their home health services. In 1999, 14 percent visited the
          emergency room within 60 days.

Home health lengths of stay are significantly shorter

          We found significantly shorter home health care episodes after the implementation of IPS.
          Our data, which are consistent with other research, show a 41 percent decrease in the
          average home health stay for Medicare patients between 1997 and 1999. On average,
          Medicare patients received home health care for 98 days in 1997. The average was 58
          days in 1999. A closer look at these data shows that this decrease is not across the board.
          The percentage of patients who have stays of 60 days or less increased by 29 percent,
          while the percentage of patients with stays 300 days or longer decreased by a 90 percent.

Number of home health patients has declined

          The number of patients discharged from the hospital with home health care declined 23
          percent between 1997 and 1999. In the first two months of 1997, approximately 462,000
          hospital patients received home health services upon their return home. During the first
          two months of 1999, this number was down to about 358,000.

Demographic profile of patients discharged to home health unchanged

          As indicated earlier, although the average length of home health episodes for Medicare
          patients discharged from the hospital to home health has decreased significantly since the
          implementation of IPS, many other characteristics of this population have not changed
          between 1997 and 1999. We found only minimal change in the diagnoses of patients who
          get re-admitted or visit the emergency room pre- and post- IPS. We also found that home
          health patients do not differ pre- and post- IPS in terms of age, sex, race, and hospital
          length of stay. In both 1997 and 1999, the average age of Medicare patients discharged to
          home health was 77. Sixty-three percent were women, while 37 percent were men in both
          1997 and 1999. In addition, the distribution across race categories was similar. For
          example, in both 1997 and 1999, 85 percent of Medicare patients discharged to home
          health were white and 11 percent were black. Finally, the average hospital stay for these
          patients pre- and post- IPS was also very similar, 7.9 and 7.6 days, respectively.




Hospital Re-admissions and ER Visits               8                                OEI-02-99-00531
Re-admission rates do not vary by diagnoses
Little change in diagnoses of high volume re-admissions

          The re-admission ranking for the five most common diagnoses4 associated with patients
          who get re-admitted to the hospital has remained relatively constant pre- and post-IPS.
          Table 2 shows the most common hospital diagnoses for re-admitted patients based on
          total volume. Not surprisingly, in both 1997 and 1999, these diagnoses are very similar to
          the diagnoses of patients most likely to get home health care upon discharge from the
          hospital. The re-admission rates for patients in these high volume diagnoses have not
          increased since the implementation of the interim payment system.

                                                      Table 2

               Ranking of Highest Volume Diagnoses For Re-Admitted Patients,

                                     Pre- and Post-IPS


                                                                          Total Volume       Total Volume
                          Initial Hospital Diagnosis                          Rank               Rank
                                                                              1997               1999



        DRG 127- Heart failure and shock                                         1                 1
        DRG 088- Chronic obstructive pulmonary disease                           2                 3
        DRG 089- Simple pneumonia and pleuresy                                   3                 2
        DRG 014- Specific cerebrovascular disorders                              4                 4
        DRG 079- Respiratory infections and inflammations                        5                 9
        DRG 296- Nutritional and misc. metabolic disorders                       6                 5
                                                                            Source: National Claims History File



Re-admission rates have not increased for most frequently re-admitted
diagnoses

          We found that patients with cancer-related diagnoses are the most likely to be re-admitted
          to the hospital. As Table 3 on the next page shows, the rates at which home health
          patients in these diagnoses were re-admitted to the hospital do not increase pre- and post-
          IPS.

          4
              Based on diagnosis related group code (DRG) assigned to patient during their initial hospital stay.

Hospital Re-admissions and ER Visits                        9                                     OEI-02-99-00531
                                                     Table 3

                           Pre- and Post- IPS Highest Re-admission Rates

                               for Home Health Patients By Diagnoses


                                                                         Percent      Percent     Difference
                          Initial Hospital Diagnosis                      1997         1999       1997-1999



        DRG 473- Acute leukemia w/o major OR procedure                     75.3         66.5          -8.8

        DRG 202- Cirrhosis and alcoholic hepatitis                         64.2         59.1          -5.1

        DRG 489- HIV w/ major related condition                            62.3         58.6          -3.7

        DRG 403- Lymphoma and nonacute leukemia w/ CC                      67.9         65.1          -2.8

        DRG 410- Chemotherapy w/o acute leukemia                           85.2         83.0          -2.2

        DRG 172- Digestive malignancy w/ CC                                63.6         63.3          -0.3
          (N > 200)                                                        Source: National Claims History File



No increase is found in re-admissions of patients in at-risk diagnoses

          The data in Table 4 on the next page, show no significant increases in the percentage of
          patients re-admitted in at-risk diagnoses. A number of recent studies5 that look at the
          effects of IPS and the adequacy of home health care identify diagnoses and patient types
          which may be at-risk of receiving inadequate care. We compared pre- and post-IPS re-
          admission rates for these patient types where a Medicare diagnosis code6 match could be
          established. For example, we are able to examine re-admission rates for congestive heart
          failure home health patients because they can be designated as such under ICD9 code 428.
          However, our analysis does not include two other groups of patients which some
          researchers raise concerns about--chronic care patients and those requiring intensive
          services--because they cannot be identified by diagnosis code.




          5
           The sources of the studies we reviewed include: GAO; MedPAC; George Washington University; and,
          DHHS OIG.
          6
            For this analysis we used the ICD9 diagnosis code assigned at the start of the patient’s home health care
          episode.

Hospital Re-admissions and ER Visits                     10                                     OEI-02-99-00531
                                              Table 4

                      Pre- and Post- IPS Percentage of Re-admitted Patients

                                       In At-Risk Diagnoses 


                                                               Percent    Percent     Difference
                  Home Health ICD9 Diagnosis Code               1997       1999       1997-1999



      ICD9 294- Dementia                                        39.8        35.5           -4.3

      ICD9 586- Renal Failure                                   61.8        57.6           -4.2

      ICD9 250- Diabetes                                        47.8        43.7           -4.1

      ICD9 331- Alzheimer’s                                     38.9        35.5           -3.4

      ICD9 428- Heart Failure                                   52.3        49.0           -3.3

      ICD9 340- Multiple Sclerosis                              39.4        36.9           -2.5

      ICD9 494- Bronchiectasis (Pulmonary Disease)              43.6        41.8           -1.8

      ICD9 344- Quadriplegia                                    45.0        45.5           +0.5
                                                                Source: National Claims History File




Emergency room visit rates do not vary by diagnoses

Little change in diagnoses of high volume emergency room users

          As Table 5 on the following page indicates, the ranking for the five most common
          diagnoses associated with patients who visit the emergency room has remained relatively
          constant. Similar to the case with re-admissions, the rate at which patients in these high
          volume diagnoses visit the emergency room has not increased since the implementation of
          the interim payment system.




Hospital Re-admissions and ER Visits              11                                 OEI-02-99-00531
                                                  Table 5

     Ranking of Highest Volume Diagnoses For Emergency Room Visit Patients,

                                Pre- and Post-IPS


                                                                    Total Volume     Total Volume
                           Initial Hospital Diagnosis                   Rank             Rank
                                                                        1997             1999



      DRG 127- Heart failure and shock                                   1                 1
      DRG 089- Simple pneumonia and pleuresy                             2                 2
      DRG 088- Chronic obstructive pulmonary disease                     3                 3
      DRG 014- Specific cerebrovascular disorders                        4                 4
      DRG 079- Respiratory infections and inflammations                  5                 10
      DRG 209- Major joint and limb reattachment procedures              6                 5
                                                                  Source: National Claims History File




Emergency room visit rates have not increased for patients that frequently visit
the emergency room

          In both 1997 and 1999, the diagnoses of home health patients most likely to visit the
          emergency room covered a broader range of diagnoses than those most likely to be re-
          admitted to the hospital. However, patients with respiratory illnesses and those with
          kidney and urinary tract diagnoses show up in the list of frequent emergency room visitors
          in both 1997 and 1999. As Table 6 on the next page shows, we found the rates at which
          patients in the majority of these diagnoses visit the emergency room does not increase pre-
          and post- IPS.




Hospital Re-admissions and ER Visits                    12                           OEI-02-99-00531
                                                  Table 6

                           Pre- and Post- IPS Emergency Room Visit Rates
                                for Home Health Patients By Diagnoses

                                                                 Percent    Percent     Difference
                          Initial Hospital Diagnosis              1997       1999       1997-1999



        DRG 132- Artherosclerosis w/ CC                           34.1        27.9          -6.2

        DRG 315- Other kidney and urinary tract OR                34.6        29.7          -4.9
        procedures

        DRG 099- Respiratory signs and symptoms w/ CC             35.4        30.6          -4.8

        DRG 140- Angina pectoris                                  31.2        29.5          -1.7

        DRG 143- Chest pain                                       34.1        32.6          -1.5

        DRG 482- Tracheostomy for face, mouth and neck            28.9        32.3          +3.4
        diagnoses

        DRG 425- Acute adjustment reactions/psychosocial          26.3        30.1          +3.8
        dysfunction
          (N > 200)                                                Source: National Claims History File




No increase is found in emergency room visit rates for at-risk diagnoses

          Finally, we found no significant increase in the rate at which patients in at-risk diagnoses
          visited the emergency room pre- and post-IPS. As Table 7 on the next page indicates,
          seven of the eight diagnoses we looked at show no increase in emergency room visits rates
          between 1997 and 1999.




Hospital Re-admissions and ER Visits                   13                             OEI-02-99-00531
                                                Table 7

                   Pre- and Post- IPS Percentage of Emergency Room Visits
                                     in At-Risk Diagnoses

                                                           Percent     Percent       Difference
                   Home Health ICD9 Diagnosis               1997        1999         1997-1999

   ICD9 250- Diabetes                                        26.6        22.8            -3.8

   ICD9 428- Heart Failure                                   26.2        22.5            -3.7

   ICD9 331- Alzheimer's                                     24.2        20.7            -3.5

   ICD9 340- Multiple Sclerosis                              22.6        19.6            -3.0

   ICD9 294- Dementia                                        23.4        21.1            -2.3

   ICD9 586- Renal Failure                                   31.1        29.8            -1.3

   ICD9 344- Quadriplegia                                    27.6        26.6            -1.0

   ICD9 494- Bronchiectasis (Pulmonary Disease)              14.7        18.3           +3.6

                                                                Source: National Claims History File




Change in re-admission and emergency room visit rate for
home health patients is consistent with general Medicare
population
          Re-admission rate changes pre- and post-IPS for home health patients are consistent with
          those for the general population. The same percentage of home health patients are re-
          admitted to the hospital within 60 days of their hospital discharge in 1997 and 1999 (30
          percent). The rate at which all patients are re-admitted, within this time frame, does not
          change between 1997 and 1999 either (25 percent). This trend holds up for emergency
          room visit patients as well. In both 1997 and 1999, 14 percent of home health patients
          visit the emergency room within 60 days of their discharge. Twelve percent of all patients
          discharged visit the emergency room, within this time frame, in both 1997 and 1999.




Hospital Re-admissions and ER Visits              14                                OEI-02-99-00531
                            AGENCY COMMENTS


The Health Care Financing Administration provided comments on this and two related draft
reports. They note that our finding that re-admissions and ER visits have declined is an indicator
of stability in home care under the interim payment system. They also note that on October 1,
2000 the new prospective payment system for home health care will go into effect. They, like we,
will monitor care under the new system. The HCFA’s comments are in Appendix B.




Hospital Re-admissions and ER Visits           15                               OEI-02-99-00531
                                                                               APPENDIX A




    Selected List of Other Recent Office of Inspector General 

                     Home Health Inspections


          Office of Inspector General, US Department of Health and Human Services, “Medicare
          Beneficiary Access to Home Health Agencies,” OEI-02-99-00530, October 1999.

          Office of Inspector General, US Department of Health and Human Services, “Medicare
          Beneficiary Access to Home Health Agencies: 2000,” OEI-02-00-00320, September
          2000.

          Office of Inspector General, US Department of Health and Human Services, “ Medicare
          Home Health Services: Survey and Certification Deficiencies,” OEI-02-99-00532,
          September 2000.




Hospital Re-admissions and ER Visits            16                            OEI-02-99-00531
                                                                                APPENDIX B



                                       Agency Comments


          In this appendix, we present the comments from the Health Care Financing
          Administration.




Hospital Re-admissions and ER Visits            17                              OEI-02-99-00531
Hospital Re-admissions and ER Visits   18   OEI-02-99-00531
Hospital Re-admissions and ER Visits   19   OEI-02-99-00531
Hospital Re-admissions and ER Visits   20   OEI-02-99-00531
